No.

IN THE
SUPREME COURT OF THE UNITED STATES
PRO SE RODNEY BERRYMAN Sr.,

-PETITIONER

VS.
ROBERT WONG et al.

-RESPONDENT S)

DECLARATION OF SERVICE
PROOF OF SERVICE
I, RODNEY BERRYMAN Sr., DO SWEAR OR DECLARE THAT ON THIS DATE 9/9/2020
THAT.THIS "DECLARATION OF SERVICE" IS IN COMPLIANCE WITH 28 U.S.C. ยง1746.
ALSO, I HAVE SERVED THE ENCLOSED MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS, AND THE PETITION FOR WRIT OF CERTIORARI, ON EACH OF THE PARTIES
TO THE ABOVE PROCEEDINGS OR THAT PARTY,'S COUNSEL - AND ON EVERY OTHER
PERSON REQUIRED TO BE SERVED, BY DEPOSITING AN ENVELOPE CONTAINING THE
ABOVE DOCUMENTS
AND BY HANDING IT TO THE CORRECTIONAL STAFF SO TO BE
MAILED PROPERLY ADDRESSED TO EACH OF THEM - WITH FIRST CLASS POSTAGE
PREPAID OR BY DELIVERY TO A THIRD PARTY COMMERCIAL CARRIER FOR DELIVERY
WITHIN THREE (3) CALENDAR DAY.
1. THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS:
2. BRIAN R. MEANS DEPUTY ATTORNEY GENERAL, 1300 I STREET, SUITE 125 P.O.
BOX 844255 SACRAMENTO CA. 94244-2550., Ph. 916-324-5254
3. SAOR E. STETLER #194978 ATTORNEY AT LAW, P.O. BOX 2189 MILL VALLEY CA.
94942. > Ph. 415-388-8924
4. I, RODNEY BERRYMAN Sr. DECLARE UNDER PENALTY OF PERJURY THAT THE
FOREGOING IS TRUE AND CORRECT.
5. EXECUTED ON
6.

SEPTEMBER 9. 2020.

ยฃ
39

